No. 20-951

In the Supreme Court of the United States
MARY STEWART, AS ADMINISTRATOR OF THE ESTATE OF LUKE O. STEWART, SR.,
D ECEASED, PETITIONER
v.
CITY OF E UCLID, OH, E T. AL ., RESPONDENT
RULE 33.1(H) CERTIFICATE OF COMPLIANCE
I, Edward J. Bennett, counsel for Professor Stoughton and Policing Scholars and
member of the bar of this Court, hereby certify that Motion for Leave to File in the
foregoing case contains 332 words, and the Brief of Professor Seth Stoughton and Policing
Scholars as Amici Curiae in Support of Petitioner in the foregoing case contains 5,977
words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).

s/ Edward J. Bennett
EDWARD J. BENNETT
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
ebennett@wc.com
Counsel for Amici Curiae

